Yan |

2311 Douglas Street
Omaha, Nebraska 68102-1214

@OCKLE

Legal Briefs

E-Mail Address:

Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No.
KEVIN EDWARD CONNORS,
Petitioner,
v.
THE STATE OF TEXAS,
Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court

Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 8995 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 7th day of August, 2020.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

Kepee. 0. dase?

Notary Public

GENERAL NOTARY-State of Nebraska
RENEE J. GOSS
A My Comm. Exp. September 5, 2023

 

Ouidah, Bh he

Affiant 39875
